Audit of Accountability for Costs Incurred in Peru by
U.S.-Based Contractors and Grantees
Audit Report No. 1-527-03-002-F

December 20, 2002




                    San Salvador, El Salvador
December 20, 2002

MEMORANDUM
FOR:           USAID/Peru Director, Patricia Buckles

FROM:          Acting RIG/San Salvador, Steven H. Bernstein

SUBJECT:       Audit of Accountability for Costs Incurred in Peru by U.S.-Based
               Contractors and Grantees (Report No. 1-527-03-002-F)

This memorandum is our report on the subject audit.

This report does not contain any recommendations for your action. Your
comments to our draft report have been included, in their entirety, as Appendix II.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                      1
Table of   Summary of Results                                                     3
Contents
           Background                                                              4

           Audit Objectives                                                        5

           Audit Findings                                                          5

                  What testing of costs incurred in Peru has been performed for
                  USAID/Peru’s U.S.-based contractors and grantees?                5

                  What additional measures has USAID/Peru taken to help ensure
                  that the costs incurred in Peru by U.S.-based contractors and
                  grantees are allowable, allocable, and reasonable?               7

           Management Comments and Our Evaluation                                  9

           Appendix I – Scope and Methodology                                     10

           Appendix II – Management Comments                                      12




                                                                                   2
Summary of   USAID’s U.S.-based contractors are subject to incurred-cost audits that are
Results      generally conducted by the Defense Contract Audit Agency (DCAA) pursuant to
             a memorandum of understanding between the USAID Office of Inspector General
             and DCAA. U.S.-based grantees are subject to audits performed by audit firms
             pursuant to Office of Management and Budget (OMB) Circular A-133. Federal
             agencies must rely on these audits if they meet the agencies’ needs, and any
             additional audit work should not duplicate audit work already performed. (See
             page 4.)

             In response to a request by USAID/Peru, the Regional Inspector General/San
             Salvador performed this audit to determine (1) what testing of costs incurred in
             Peru has been performed for USAID/Peru’s U.S.-based contractors and grantees
             and (2) what additional measures USAID/Peru has taken to help ensure that the
             costs incurred in Peru by U.S.-based contractors and grantees are allowable,
             allocable, and reasonable. (See page 5.)

             For the 11 U.S.-based contractors and grantees in our sample, DCAA and the
             audit firms tested $1,666,309 (6.5 percent) of the $25,636,946 disbursed to the
             contractors and grantees by USAID/Peru during the most recent fiscal years
             examined by the auditors. It should be noted that auditors in the United States, if
             they are not familiar with local conditions, business practices, and price levels in
             Peru, may not be able to determine the reasonableness of costs incurred in Peru.
             Audit testing in Peru was performed for only one of the entities in our sample of
             11 U.S.-based contractors and grantees. (See page 5.)

             USAID/Peru monitors costs incurred in Peru by U.S.-based contractors and grantees
             through voucher reviews, which include administrative approvals by contract
             technical officers who have first-hand knowledge of services provided, as well as
             occasional reviews conducted by USAID/Peru financial analysts. In addition,
             USAID/Peru staff review progress reports and conduct site visits and meetings with
             contractors and grantees to maintain cognizance of the activities carried out by U.S.-
             based contractors and grantees in Peru. USAID/Peru relies on OMB Circular A-133
             and DCAA audits and has not arranged for any additional audit testing of costs
             incurred in Peru by its U.S.-based contractors and grantees. (See page 7.)

             If considered necessary, USAID/Peru could increase audit coverage of its programs
             in two ways. First, it could request A-133 audit firms or DCAA to perform
             additional audit procedures. Second, USAID/Peru could arrange for additional
             audits of U.S.-based contractors and grantees, building on but not duplicating audit
             work previously performed. (See page 7.)

             USAID/Peru agreed with the report and our findings. (See page 9.)




                                                                                                    3
Background   Based on program funding levels, USAID/Peru is the second-largest mission in the
             Latin American and Caribbean region, with a fiscal year 2003 budget request level
             of $147 million. Many of USAID/Peru’s programs are carried out by contractors
             and grantees with headquarters in the United States.

             U.S.-based contractors are subject to incurred-cost audits that are generally
             conducted by DCAA pursuant to a memorandum of understanding between
             USAID’s Office of Inspector General and DCAA. U.S.-based grantees are
             subject to audits performed by audit firms pursuant to OMB Circular A-133.
             Federal agencies must rely on these audits if they meet the agencies’ needs, and
             any additional audit work should not duplicate audit work already performed.

             In accordance with Section 42.003 of the Federal Acquisition Regulations, the
             federal agency with the largest amount of negotiated contracts with a for-profit
             organization is the cognizant federal agency. Pursuant to the terms of the
             memorandum of understanding referred to above, DCAA performs incurred-cost
             audits for substantially all of the contractors for which USAID is the cognizant
             federal agency.

             Pursuant to the Single Audit Act Amendments of 1996 (Public Law 104-156),
             grantees expending more than $300,000 in one year are subject to a single
             financial audit covering all federal awards. Regulations implementing the Single
             Audit Act were issued in OMB Circular A-133. The extent of the audit
             procedures to be applied is determined by whether a grantee qualifies as low-risk1
             and whether a program is determined to be a major program.2

             For a low-risk grantee, the audit firms need only audit as major programs those
             federal programs with federal awards expended that, in the aggregate, encompass
             at least 25 percent of total federal awards expended. For other grantees, audit
             coverage is required to be at least 50 percent.3

             1
               A grantee qualifies as low-risk if, for the preceding two years, there were unqualified opinions on
             audits of the financial statements and the schedule of expenditures; there were no material
             weaknesses identified in the internal controls; there were no material instances of noncompliance
             with provisions of laws, regulations or grant agreements; and none of the programs in which
             $300,000 (or a higher threshold as set forth in OMB Circular A-133) in federal awards was
             expended had questioned costs that exceeded five percent of the total federal awards expended for
             the program during the year (OMB Circular A-133, Section 530).
             2
               A major program is a program in which $300,000 (or a higher threshold as set forth in OMB
             Circular A-133) in federal awards are expended in one year, unless the auditor has made a
             determination that the program is low-risk. Generally, a low-risk program is one that was audited
             as a major program in one of the last two years, and in the most recent audit period there were no
             significant findings. Additionally, a program in which federal awards are less than $300,000 (or
             other threshold pursuant to OMB Circular A-133) is audited as a major program if it is determined
             to be a high-risk program (OMB Circular A-133, Section 520).
             3
                 OMB Circular A-133, Section 520(f).


                                                                                                                4
             Audit firms performing A-133 audits are required to conduct their audits in
             accordance with generally accepted government auditing standards (GAGAS)
             issued by the Comptroller General of the United States. Under GAGAS, the audit
             firms perform financial statement audits to determine if financial statements are
             fairly presented in accordance with generally accepted accounting standards. To
             obtain sufficient evidence to support their opinion on an entity’s financial
             statements, the audit firms normally assess the effectiveness of the entity’s system
             of internal control and then perform substantive tests of individual transactions.
             The audit firms are also responsible for verifying compliance with applicable
             laws, regulations, and contract or agreement terms if noncompliance could have a
             direct and material effect on the financial statements. For major programs, in
             addition to following GAGAS requirements, OMB Circular A-133 requires audit
             firms to perform more in-depth testing of internal controls relevant to the
             compliance requirements for each major program. It also requires that auditors
             determine whether the auditee has complied with laws, regulations, and the
             provisions of contracts or grant agreements that may have a direct and material
             effect on each of its major programs.4



Audit        In response to a request by USAID/Peru, the Regional Inspector General/San
Objectives   Salvador performed the audit to answer the following questions:

             •     What testing of costs incurred in Peru has been performed for USAID/Peru’s
                   U.S.-based contractors and grantees?

             •     What additional measures has USAID/Peru taken to help ensure that the costs
                   incurred in Peru by U.S.-based contractors and grantees are allowable,
                   allocable, and reasonable?

             Appendix I contains a complete discussion of the scope and methodology for the
             audit.


Audit        What testing of costs incurred in Peru has been performed for USAID/Peru’s
Findings     U.S.-based contractors and grantees?

             For the 11 U.S.-based contractors and grantees in our sample, DCAA and the audit
             firms tested $1,666,309 (6.5 percent) of the $25,636,946 disbursed to the contractors




             4
                 OMB Circular A-133, Sections 500(c)(2)(i) and 500(d)(1).



                                                                                                 5
and grantees by USAID/Peru during the most recent fiscal years examined by the
auditors.5

For-Profit Firms – Our sample included five U.S.-based contractors: Louis
Berger International, Abt Associates, Chemonics International, the University
Research Corporation, and the International Science & Technology Institute.

DCAA tested $561,063 in costs incurred in Peru by Louis Berger International
and $12,150 in costs incurred in Peru by Abt Associates. This testing consisted of
reviewing documentation available at the contractors’ headquarters in the United
States.

DCAA did not test any costs associated with USAID/Peru contracts for
Chemonics International, the International Science & Technology Institute, or the
University Research Corporation.

Non-Profit Entities – Our sample included six U.S.-based grantees: Pathfinder
International, Winrock International Institute for Agricultural Development,
CARE, Catholic Relief Services (CRS), Private Agencies Collaborating Together
(PACT) and the National Democratic Institute.

The audit firm for Pathfinder International tested $1,081,312 in costs incurred in
Peru. The audit firm used its Peru office to test the costs and to determine if they
were reasonable, allocable, and allowable. The audit tests performed included
determining if expenditures were properly authorized, tracing transactions to
original documentation, determining if transactions were properly recorded,
reviewing transactions for reasonableness, determining if transactions were
allowable, and determining if the transactions complied with Pathfinder
International’s policies as well as applicable laws and regulations.

The audit firm for Winrock tested $11,784 in costs incurred in Peru. The audit
tests consisted of reviewing supporting documentation on file at Winrock’s
headquarters in the United States.

The audit firms for CARE, CRS, PACT, and the National Democratic Institute
did not test any costs incurred in Peru during the most recent audit periods.

Auditors in the United States may not be familiar with local conditions, business
practices, and price levels in Peru; consequently, making a determination of the
reasonableness of costs incurred in Peru may be difficult. Similarly, auditors in
the United States would not normally be familiar with Peruvian laws and
regulations; therefore, determining if contractors and grantees have complied with


5
  Our sample included the five contractors and six grantees with the largest disbursements during
the fiscal years covered by their most recent available audits. See Appendix I for additional details
on the audit sample.


                                                                                                    6
them would also be difficult. No audit testing was performed in Peru for any of
the contractors or grantees in our sample except for Pathfinder International.

What additional measures has USAID/Peru taken to help ensure that the
costs incurred in Peru by U.S.-based contractors and grantees are allowable,
allocable, and reasonable?

USAID/Peru monitors costs incurred in Peru by U.S.-based contractors and
grantees through voucher reviews, which include administrative approvals by
contract technical officers who have first-hand knowledge of services provided, as
well as occasional reviews conducted by USAID/Peru financial analysts. In
addition, USAID/Peru staff review progress reports and conduct site visits and
meetings with contractors and grantees to maintain cognizance of the activities
carried out by U.S.-based contractors and grantees in Peru. USAID/Peru relies on
OMB Circular A-133 and DCAA audits and has not arranged for any additional
audit testing of costs incurred in Peru by its U.S.-based contractors and grantees.

If the audits performed by DCAA and the audit firms conducting OMB Circular
A-133 audits do not fully meet USAID/Peru’s needs, USAID/Peru can increase
audit coverage of its programs with U.S.-based contractors and grantees in two
ways. First, it can request A-133 audit firms or DCAA to perform additional
audit procedures. Second, USAID/Peru can arrange for additional audits of U.S.-
based contractors and grantees, building on but not duplicating audit work
previously performed. These two alternatives are discussed below. Following the
discussion of these two alternatives, we discuss a finding, previously reported by
the Office of Inspector General’s Financial Audit Division (IG/A/FA), that
USAID as an agency might be able to obtain more effective audit coverage of its
programs by listing its programs with U.S.-based contractors and grantees in the
Catalog of Federal Domestic Assistance.

Request That Additional Audit Procedures Be Performed – For U.S.-based
grantees, who are subject to A-133 audits, USAID/Peru can request that the A-
133 auditors treat USAID/Peru’s programs as major programs. As discussed in
the background section above, the significance of this is that, for major programs,
audit firms are required to perform more in-depth testing of internal controls
relevant to the compliance requirements for each major program. They are also
required to determine whether the auditee has complied with laws, regulations,
and the provisions of contracts or grant agreements that may have a direct and
material effect on each major program.

In order to request that a program be audited as a major program, USAID must
submit a request to the grantee and its audit firm, if known, at least 180 days prior
to the end of the fiscal year to be audited. The grantee is required to inform
USAID whether the program would otherwise be audited as a major program and,
if not, the estimated additional cost. USAID is then required to confirm that it
wants the program audited as a major program. If the program is audited as a



                                                                                    7
major program based upon USAID’s request, USAID must agree to pay the
additional costs.

Any such request by a mission would be submitted through the Office of
Procurement’s Contract Audit Management Branch (M/OP/PS/CAM).
M/OP/PS/CAM would then submit the request to the grantee and its audit firm,
while keeping IG/A/FA informed.

USAID/Peru can also request that DCAA perform more in-depth audit work on a
specific program. The mission would submit such a request to M/OP/PS/CAM,
which would include the additional work in the statement of work.
M/OP/PS/CAM would provide the statement of work to IG/A/FA, who would
then issue an engagement letter to DCAA asking them to perform the requested
audit work.

Arrange for Additional Audits – USAID/Peru can also obtain increased audit
coverage of its programs with U.S.-based contractors and grantees by arranging
for additional audits to be performed in Peru. It should be emphasized that any
such additional audits should build on, not duplicate, any other audit work
performed.6

If USAID/Peru needs additional audits to be performed by an audit firm or by
DCAA in Peru, the audit would be handled as an agency-contracted audit in
accordance with Section 590.3.4.1 of the Automated Directives System and
would be coordinated through the Regional Inspector General/San Salvador
(RIG/San Salvador). USAID/Peru would be responsible for paying for the audit,
contracting for the audit, and following up on any recommendations contained in
the audit report. RIG/San Salvador would be responsible for approving the audit
statement of work and signing the engagement letter with DCAA, attending the
entrance and exit conferences if possible, and approving the draft and final audit
reports.

Catalog of Federal Domestic Assistance – USAID might also be able to increase
audit coverage of its programs by listing programs with U.S.-based contractors
and grantees in the Catalog of Federal Domestic Assistance (Catalog) published
by the General Services Administration. USAID grants and cooperative
agreements with U.S.-based nonprofit organizations, universities, and state and
local governments are treated as federal domestic assistance for purposes of
inclusion in the Catalog. Not including USAID’s programs in the Catalog results
in A-133 audit firms not having sufficient guidance on USAID’s federal
assistance programs. As noted in Audit Report No. 0-000-02-001-F, Report on
USAID's Compliance with Provisions of the Federal Program Information Act of
1977 dated February 13, 2002:


6
 See Section 215(a) of OMB Circular A-133 and Section 42.002 of the Federal Acquisition
Regulations.


                                                                                          8
                           Auditors conducting [OMB Circular A-133] audits lack guidance in
                           identifying USAID’s Federal assistance programs because these
                           programs do not contain unique program identification numbers for
                           inclusion in the GSA Catalog of Federal Domestic Assistance.

                           This situation can cause auditors to make substantially different
                           judgments in determining which USAID awards are subject to
                           compliance testing for the purpose of performing an acceptable A-133
                           audit.

                           As an example, an auditor of a USAID award recipient may determine
                           that all USAID awards should be considered as one population for the
                           purpose of compliance testing, regardless of the various program
                           objectives of these individual awards. However, an auditor of another
                           USAID award recipient may determine that each of its USAID awards
                           should each be considered separately for the purpose of selecting those
                           awards that will be subject to A-133 compliance testing. [The
                           significance of this is that there is a greater likelihood that USAID
                           programs qualifying as major programs will be selected for testing of
                           costs if the programs are listed separately.]

                           Because only a sample of awards are selected for compliance testing for
                           an A-133 audit of a nonprofit organization, the lack of guidance on the
                           selection of these items can cause inconsistent audit approaches, as
                           explained in the previous examples. OMB Circular A-133 audits of
                           USAID assistance are therefore potentially inconsistent and less effective
                           than possible.

                    USAID’s Office of Procurement concurred in the report’s recommendation that
                    USAID include its grant programs in the Catalog, but it has not yet implemented
                    the recommendation.



Management     USAID/Peru, in its comments to our draft report, agreed with the report and
Comments and findings.
Our Evaluation




                                                                                                        9
                                                                                    Appendix I



Scope and     Scope
Methodology
              We conducted this audit in accordance with generally accepted government auditing
              standards. We conducted the audit at RIG/San Salvador and at USAID/Peru from
              August 25, 2002 through October 18, 2002. Our work covered the most recent audit
              period for which a financial audit was completed for each of 11 contractors and
              grantees in the sample we drew (see the methodology section below for details on
              our sample). The most recent audit periods for these contractors and grantees ranged
              from the year ending June 30, 1997 through the year ending December 31, 2001.

              The audit focused on determining (1) what testing of costs incurred in Peru has been
              performed for USAID/Peru’s U.S.-based contractors and grantees and (2) what
              additional measures USAID/Peru has taken to help ensure that the costs incurred in
              Peru by U.S.-based contractors and grantees are allowable, allocable, and
              reasonable.

              We assessed USAID/Peru’s management controls related to monitoring the costs of
              U.S.-based contractors and grantees. Specifically, we assessed USAID/Peru’s
              controls for ensuring that costs incurred in Peru by U.S.-based contractors and
              grantees are allowable, allocable, and reasonable. These controls include voucher
              reviews, financial reviews, audits, quarterly progress reporting, site visits, and
              regular communications with contractors and grantees concerning their activities in
              Peru.

              Methodology

              In answering the first audit objective, which was to determine what testing of
              costs incurred in Peru has been performed for USAID/Peru’s U.S.-based
              contractors and grantees, we reviewed a sample of 5 U.S.-based contractors and 6
              U.S.-based grantees from the population of 12 U.S.-based contractors and 17
              U.S.-based grantees in USAID/Peru’s fiscal year 2001 audit inventory. Statistical
              sampling was not feasible because of the small size of the population. We
              therefore judgmentally selected the 7 U.S.-based contractors and 7 U.S.-based
              grantees with the largest disbursements shown in USAID/Peru’s fiscal year 2001
              audit inventory. Two grantees were, however, excluded because their programs
              had ended more than five years ago. The audit sample was then adjusted by
              deleting one contractor and one grantee because USAID/Peru did not make any
              disbursements to them in the period covered in their most recent audits. Another
              contractor was deleted from the sample because its programs had not been audited
              yet. The population and sample are summarized in the following table.




                                                                                                10
                                                                     Appendix I


                         Total USAID/Peru
                         Audit Inventory                  Audit Sample
                      Number    Disbursements         Number Disbursements

     Contractors          12         $26,716,356          5         $21,883,527
     Grantees             17         $73,185,133          6         $68,983,201

        Total             29         $99,901,489         11         $90,866,728

For the U.S.-based contractors in our sample, we contacted IG/A/FA to obtain
copies of the most recent audit reports issued by DCAA. After reviewing the
audit reports, we contacted the individual DCAA offices that performed the audits
and obtained from them information regarding the testing of costs incurred in
Peru.

For the U.S.-based grantees in our sample, we searched the Single Audit Act
database to identify the audit firms who conducted the most recent audits. We
contacted the audit firms for the selected grantees and obtained from them
information regarding the testing of costs incurred in Peru in the most recent audit
years. We also visited the offices of Pathfinder International’s audit firm in Lima,
Peru to review audit working papers. We also obtained from IG/A/FA copies of
all quality control reviews performed in fiscal years 2001 and 2002 of
USAID/Peru’s U.S.-based grantees as well as summary data regarding the testing
of costs.

In answering the second audit objective, which was to determine what additional
measures USAID/Peru has taken to help monitor costs incurred in Peru by U.S.-
based contractors and grantees, we interviewed USAID/Peru staff and reviewed
documentation such as USAID/Peru’s internal management control assessment, its
audit universe, and the quarterly workplan for USAID/Peru’s financial analysts.




                                                                                  11
                                                                                     Appendix II


Management
Comments


       Date:      December 6, 2002

       To:        Timothy Cox, RIG/A/SS

       From:       Patricia K. Buckles, Mission Director

       Subject:    Audit of Accountability for Costs Incurred in Peru by U.S.-Based
                   Contractors and Grantees

       USAID/Peru would like to thank you for the professional work performed by you and your
       staff on the subject audit. Your findings included in this audit report will help our Mission
       to improve audit coverage for costs incurred in Peru by U.S.-Based Contractors and
       Grantees.

       Below you will find our comments on your audit report dated November 14, 2002

       Management Comments:

       USAID/Peru fully concurs with the report. Our long standing concern that audit coverage
       has been very limited on these types of costs was validated by your findings, considering
       that independent audit firms and/or DCAA have audited only 6.5% of the total amount
       disbursed during the most recent fiscal years. Monitoring of costs incurred by U.S.-Based
       Contractors and Grantees in USAID/Peru has been strengthened through voucher reviews
       as well as occasional financial reviews conducted by USAID/Peru financial analysts but
       only on a limited basis. Although we have previously relied on OMB-A-133 and DCAA
       audits, we recognize a need to increase our coverage in the future. The findings of this
       audit will serve to guide our decisions in this regard.

       As a result of your efforts, we understand clearly the ways this audit coverage can be
       expanded and we will do so depending on the circumstances and current needs. Technical
       Offices as well as the Controller’s Office will be consulted on the needs for this additional
       audit coverage and its justification.




                                                                                                  12
